____ I

IN THE

Supremo Court, U.S.
FILED

SUPREME COURT OF THE UNITED STATES

APR 1 4 2021
office of the clerk

ANTONIO PROPHET

— PETITIONER

vs.
DONALD AMES. SUPERINTENDENT — RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
THE FOURTH CIRCUIT COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

Antonio Prophet, pro se
Prisoner #3484869
Mount Olive Correctional Complex
One Mountainside Way
Mount Olive, West Virginia 25185

QUESTION (S'! PRESENTED
1. Does a prosecutor’s remarks made at trial asserting that a defendant used his
govemmentally-induced “two years” of post-Miranda silence to tailor his trial testimony to
his “review of the discovery” evidence violate the U.S. Constitution (or is the claim at the
very least deserving of a COA), especially when considering that the defendant’s exculpatory
story told at trial was first conveyed to others before his arrest and was then told to counsel
immediately after his arrest and long before discovery evidence had been disclosed?
2. When a petitioner asserts a claim for habeas relief under AEDPA and cites the correct and
controlling “clearly established” Supreme Court precedent in support thereof, does the lower
court frustrate the efficacy and viability of the AEDPA as intended by Congress by refusing
to apply said precedent when assessing the petitioner’s claim?
3. Does a prosecutor’s misconduct and closing remarks suggesting to a jury that if it acquits
the defendant he will author and profit from the sell of a book written about the charged
crimes, and does a trial court’s misconduct and pretrial remark declaring a defendant “guilty,’^
in any way violate the Constitution or infringe upon the presumption of innocence required
of a fair trial under our nation’s criminal jurisprudence; and should Brechtfootnote 9 apply
to such misconduct?
4. Is the right to effective counsel violated when counsel, inter alia, fails to object at trial to
a prosecutorial assertion that the defendant tailored his trial testimony to the discovery
evidence, especially when the attorney knows such an assertion to be false because the
defendant told the attorney the exact same version of events testified to at trial immediately
after his arrest and long before discovery had been disclosed in the case?
5. Could reasonable jurists disagree with or find debatable the District Court’s assessment and
summary dismissal of Petitioner’s § 2254 petition, and, if so, did the 4th Circuit Court of
Appeals err in denying Petitioner a COA?

LIST OF PARTIES

[/] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this petition
is as follows:

ii.

TABLE OF CONTENTS
QUESTIONS PRESENTED

i

LIST OF PARTIES

,11

TABLE OF CONTENTS

,111

INDEX TO APPENDICES

,iv

TABLE OF AUTHORITIES CITED

,v

OPINIONS BELOW,

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

.2

STATEMENT OF THE CASE

,3
,3

A. Facts Agreed to by Both Parties,
B. Pertinent Pre-Trial Facts..........
C. Facts at Trial.............................
D. Post-Trial Facts........................

,5
,6
11

SUMMARY OF THE REASONS FOR GRANTING THE WRIT

12

REASONS FOR GRANTING THE WRIT

14
14

Question 1. Doyle Violation,

14
A. The State Court’s Decision Conflicts with Decisions of the Supreme Court,
B. The Lower Federal Court’s Decision Conflicts with Decisions of the Supreme Court...22
,26
C. Question of Significant Importance,
,28
D. The Doyle Error was not Harmless.
Question 2. Efficacy and Viability of AEDPA as Intended by Congress Frustrated,

,32

Question 3. Prosecutorial and Judicial Misconduct (.Brechtfootnote 9 implicated),

,35

Question 4. Ineffective Counsel,

,39

Question 5. Circuit Court Error in Denial of COA,

,40

CONCLUSION

,40

PROOF OF SERVICE
ill.

INDEX TO APPENDICES
APPENDIX A: Complete Copy of the 4th Circuit Court of Appeals’ Per Curiam Opinion Denying
Petitioner’s Motion for a Certificate of Appealability. Filed: October 15, 2020.
APPENDIX B: Complete Copy of the Northern District Court of WV’s Memorandum Opinion
and Order Summarily Denying and Dismissing Petitioner’s § 2254 Petition.
Filed: August 19, 2019.
APPENDIX C: Complete Copy of the Magistrate Judge’s Report and Recommendation.
Filed: February 21, 2019.
APPENDIX D: Complete Copy of the 4th Circuit Court of Appeals’ Order Denying Petitioner’s
Petition for Rehearing En Banc. Filed: November 24, 2020.
APPENDIX E: Complete Copy of the West Virginia Supreme Court of Appeals’ Opinion
Affirming Petitioner’s Convictions on Direct Appeal. Filed: June 5, 2014.
APPENDIX F: Complete Copy of Petitioner’s Memorandum ofLaw in Response and Support of
§ 2254 Petition. Filed: May 31, 2018.
APPENDIX G: Complete Copy of Petitioner’s Memorandum Requestfor a Certificate of
Appealability to the 4th Circuit Court of Appeals. Filed: September 30, 2020.
APPENDIX H: Relevant Portions of the Pre-Trial, Trial, and Post-Trial Transcripts Concerning
Matters Addressed in this Petition.
(1) Partial (Motion to Exclude) Transcripts of July 9,2012, pgs.1-23,40-43.
(2) Partial (Trial) Transcripts of July 11, 2012, pgs. 1-112, 155-162, 219-242,275-276.
(3) Partial (Trial) Transcripts of July 12,2012, pgs. 1-6,15-30, 63-142, 167-182, 215-328.
(4) Partial (Trial) Transcripts of July 13, 2012, pgs. 1-158, 167-182, 215-216.
(5) Partial (Trial) Transcripts of July 16,2012, pgs. 1-6, 29-120.
(6) Partial (Sentencing) Transcripts of September 12,2012, pgs.1-12, 43-44.

IV.

TABLE OF AUTHORITIES CITED
PAGE NUMBER
CASES
29
Berger v. United States. 295 U.S. 78 (1935)......................................................
,27
Bradv v. Maryland. 373 U.S. 83 (1963).............................................................
,23,25,32,39
Brecht v.Abrahamson, 507 U.S. 619,123 L.Ed. 2d 353,113 S.Ct. 1710 (1992)
,29
Caldwell v. Mississippi. 472 U.S. 320 (1985)......................................................
37
Coffin v. United States. 156 U.S. 432 (1895)........................................................
.29
Darden v. Wainwright. 477 U.S. 168(1986)........................................................
.29
Donnelly v. Dechristoforo. 416 U.S. 637.............................................................
.....14,19,20,29
Dovle v. Ohio. 426 U.S. 610,49 L.Ed. 2d 91,96 S.Ct. 2240 (1976)...................
15,18,23,34,36
Greer v. Miller. 483 U.S. 756,107 S.Ct. 3102,97 L.Ed. 2d 618 (1987).............
36
Inre Murchison. 349 U.S. 133 (1955)...................................................................
,22,23
Jenkins v. Anderson. 447 U.S. 231 (1980)..........................................................
32
Lockver v. Andrade. 538 U.S. 63 (2003)..............................................................
14
Mirandav. Arizona. 384 U.S. 436.16 L.Ed. 2d 694.86 S.Ct. 1602(19661...........
12
Prophet v. Ballard. W.Va. Lexis 566 (2016).........................................................
12
Prophet v. West Virginia. 135 S.Ct. 683,684,190 L.Ed. 2d 396 (2014)...............
.40
Slack v. McDaniel. 529 U.S. 473 (2000)...............................................................
11
State v. Prophet. 234 W.Va. 33,762 S.E. 2d 602 (2014)......................................
39
Strickland v. Washington. 466 U.S. 668,686 (1984)............................................
38
United States v.Parodi. 703 F. 2d 768 (4th Cir. 1983)...........................................
15
Wainwright v. Greenfield. 474 U.S. 284 (1986)...................................:..............
,27
Weatherford v. Bursey. 429 U.S. 545(1977)........................................................
,33
Williams v.Tavlor. 529 U.S. 362 (2000)..............................................................
United States v. Young. 470 U.S. 1 (1985)...........................................................
.29
STATUTES
United States Constitution, 5th Amendment...
United States Constitution, 6th Amendment...
United States Constitution, 14th Amendment.

,2
,2
,2

v.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
El For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix _A_ to
the petition and is
is reported at Prophet v. Terry. 825 Fed. Appx. 139: 2020 U.S. App. Lexis 32576 (2020).

b

The opinion of the United States district court appears at Appendix _B_ to
the petition and is
B reported at Prophet v. Terry. 2019 U.S. Dist. Lexis141054 (Feb. 21. 2019).
JURISDICTION
ei

For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was [ October 15.2020_ ].
□. No petition for rehearing was timely filed in my case.
b

A timely petition for a rehearing was denied by the United States Court of
Appeals on the following date: [ November 24. 2020 ], and a copy of the
Order denying rehearing appears at Appendix D .

Additionally, on March 19, 2020, this Court Ordered that “In light of the ongoing public health
concerns relating to COVID-19 ... the deadline to file any petition for a writ of certiorari ... is
extended [from 90 days] to 150 days from the date of the lower court judgement... or order denying
a timely petition for rehearing.” U.S. Supreme Court Order. 2020 U.S. Lexis 1643, No. 589 (March
19, 2020).
Thus, the jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).

1.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
CONSTITUTION OF THE UNITED STATES, Amendment V: “No person shall be held to
answer for a capital, or otherwise infamous crime, unless on a presentment or indictment of a Grand
Jury, except in cases arising in the land or naval forces, or in the Militia, when in actual service in
time of War or public danger; nor shall any person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness against himself,
nor be deprived of life, liberty, or property, without due process of law; nor shall private property be
taken for public use, without just compensation.”
CONSTITUTION OF THE UNITED STATES, Amendment VI: “In all criminal prosecutions,
the accused shall enjoy the right to a speedy and public trial, by an impartial jury of the State and
district wherein the crime shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the accusation; to be confronted
with the witness against him; to have compulsory process for obtaining witnesses in his favor, and
to have the Assistance of counsel for his defence.”
CONSTITUTION OF THE UNITED STATES, Amendment XIV, Section 1: “All persons bom
or naturalized in the United States, and subject to the jurisdiction thereof, are citizens of the United
States and of the State wherein they reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.”

2.

STATEMENT OF THE CASE
This is a petition for a Writ of Certiorari to the Fourth Circuit Court of Appeals from the
denial of a Certificate of Appealability (App. A), followed by the denial of a timely filed Petition for
Rehearing En Banc (App. D); which denials were entered on October 15, 2020 and November 24,
2020, respectively, and which affirmed the Northern District Court of West Virginia’s summary
denial and dismissal of Petitioner’s § 2254 Petition for Habeas Corpus relief. [App. B].
Petitioner Antonio Prophet (hereinafter, Petitioner) was convicted by a Berkeley County,
West Virginia, Grand Jury, on July 16, 2012, for two (2) counts of murder in the first degree, and
one (1) count of arson in the first degree. Petitioner’s convictions stem from acts ofmurder and arson
that occurred in the early morning hours of June 6,2010, in a two-story residential garage apartment
in Berkeley County, West Virginia; acts which Petitioner Prophet vehemently denies committing.
A. Facts Agreed to by Both Parties
In mid- to late-May of 2010, Petitioner traveled from Washington, DC to Martinsburg, WV
to visit childhood friend Joseph Medina (“Medina”), who’d recently moved to the area. [App. H(3)
at 71 -76]. Shortly after arriving in Martinsburg, Petitioner met one of the victims in this case, Angela
K. Devonshire (“Angela”), in the Capital Heights neighborhood of Martinsburg, at which time the
two began a brief courtship and exchanged phone numbers. Around the same time, Medina met
Angela as well, at which time he sold or gave her some marijuana and was accompanied by “another
guy” who he’d “met...in the neighborhood” who provided her with heroin. [Id. at 68-69].
Within a week ofmeeting, Petitioner and Angela, their relationship having advanced past the
initial phone call stage, began spending time together at Angela’s home—a two-bedroom garage
apartment located on a sprawling multi-acre estate just outside of town. [App. H(2) at 7, 9-10,1314]. There, Petitioner met and interacted with Angela’s father (“Mr. Devonshire”), mother, brother,
and two young children (Andre and Daronte White); all of whom lived on the estate as well but in
a separate residence (“the parent’s residence”) on an adjacent property less than “a quarter of a mile”
up the private road from Angela’s garage apartment. [Id. at 7, 9-10, 18]. Angela’s children were
3.

being kept under the primary care of Mr. and Mrs. Devonshire due to Angela’s recent and
pronounced struggles with drug abuse—her drug of choice being heroin. [Id. at 40-43,67-68,88-90].
On June 3, 2010, Petitioner and Medina entered into a dispute with one another, in which
threats of violence were exchanged between the two. [App. H(3) at 75, 172-74]. The dispute
escalated quickly, with Petitioner offering $300 for information on Medina’s whereabouts (Id. at
173); and with Medina informing his girlfriend, Chareese Davis, that he knew where Angela
Devonshire lived, knew the Petitioner frequented her residence, and indicated that he intended to go
thereto confront the Petitioner regarding their dispute. [Id. at 177-78, 180-81].
Two days later, on June 5, 2010, Petitioner was picked up late in the day and driven to the
Devonshire family’s estate by Mr. Devonshire. [App. H(2) at 12]. Once there, Mr. Devonshire
prbceedecfinto his home for the night with his wife and adult son; while Petitioner, Angela, and her
two children proceeded down to Angela’s neighboring garage apartment, where they’d planned to
spend the remainder of the night. [Id. at 12-13, 15, 71-72].
Early the next morning, on June 6, 2010, Angela K. Devonshire and her three year old son,
Andre White, Jr., were murdered and their garage apartment was intentionally set aflame. Petitioner
and Daronte White (Angela’s six week old child) were present during the murders and arson as well
but escaped after Petitioner rescued Daronte from the blaze. Petitioner then carried Daronte up to
the parent’s residence, placed the child in a lawn chair on the back porch of the residence, and fled.
Eleven days after the crime (during which time Petitioner failed to relay any portions of his
exculpatory version of events to anyone but his son’s mother and the victim’s father1), Petitioner was

1 The day after the crime, Petitioner text messaged Angela’s father, Mr. Devonshire, expressing
his condolences to the Devonshire family and apologizing for having failed to protect Angela and Andre
from “them.” [App. H(3) at 323-24]. On the same day, Petitioner spoke by phone with his son’s mother,
Katie Draughon, who testified at trial that during their phone conversation Petitioner told her that during
the incident in question he “had been attacked by his friends and robbed.” [App. H(2) at 224]. (For the
record, Petitioner contends that Ms. Draughon’s actual testimony at trial was that Petitioner told her that
he “had been attacked by Joe’s friends and robbed.” But the court reporter apparently heard something
different; and, of course, the record is what it is.)
4.

arrested in North Carolina and charged with the crimes at issue. At the time of his arrest Petitioner
was Mirandized and a custodial interrogation was initiated; at which time Petitioner told detectives
that he was at Angela’s home on the night in question and that he would like to speak with them
about what had transpired that night, but, mindful of the admonition that anything he said would be
used against him in a court of law, he advised detectives that he would first like to exercise his right
to remain silent in order to consult with an attorney before making a statement. [App. H(4) at 34:14lb], At that point, detectives ended their interview of the Petitioner.
B. Pertinent Pre-Trial Facts
Within days ofhis arrest, Petitioner met with his court-appointed counsel and relayed to them
his exculpatory version of events regarding the crime in question. (It must be noted here that
Petitioner’s version of events conveyed to counselat that time was the exact same version of events *
Petitioner testified to at his trial more than two years later.) During this meeting, Petitioner also
informed counsel that he wished to meet with State agents in order to relay to them his version of
events regarding the crime in question, as he was eager to be released from State custody and to have
the charges against him dropped. Counsel advised against this, however, expressing the belief that
not only would Petitioner’s relaying of his version of events to State agents likely not succeed in
getting him released from custody and the charges against him dropped, but also that his version of
events was self-incriminating in certain ways—as his version of events placed him at the scene of
the crime during its commission. It was therefore decided that Petitioner would forgo meeting with
State agents regarding his version of events and that counsel would instead conduct their own
independent investigation of the crime, and, guided by the rule of law and Petitioner’s firsthand
version of events, would legally submit Petitioner’s defense to an impaneled jury of his peers at any
subsequent trial that might be had against him. (See App. H(l) at 20:15-24: wherein Petitioner’s
counsel—at a pre-trial hearing in this matter, and after being critiqued by the court for having failed
to disclose Petitioner’s version of events to the State prior to that point—advised the court that
counsel had made the decision not to relay Petitioner’s exculpatory version of events to the State
5.

because it was “determined at some point that that was not an alibi defense,” and, therefore, that “it
was a defense that could be brought at trial.” Id.)
C. Facts at Trial
At trial, which began on July 10, 2012, the State presented its case-in-chief against the
Petitioner. The pertinent portions of which are as follows: Petitioner had been at the Devonshire
family’s property on the night before the crime, and, accompanied by Angela and her two children,
had been witnessed entering the garage apartment where the crime took place just hours before its
commission. [App. H(2) at 11-12, 15, 62, 65, 71-72]. The next morning, at 4:36 a.m., a passing
motorist called 911 to report the existence of a large fire visible in the area. Within minutes, police,
fire, and other emergency personnel and vehicles responded to the Devonshire estate where, after
extinguishing the fire that"had fully engulfed Angela’s two-story garage apartment, they discovered
the bodies of Angela and Andre in the fire damaged remains. [Id. at 106-08]. Infant Daronte was
found unharmed on the back porch of the parent’s residence; his baby T-shirt was dotted with
someone’s blood. [Id. at 79, 102]. Petitioner was missing and nowhere to be found, as he had
apparently fled the scene; he then fled the State with the help of numerous strangers with whom he
shared no knowledge of the crime. [Id. at 110].
Angela was subsequently determined to have died as a result of “bleeding out” from a large
cut to the front of her neck. [Id. at 98], Andre’s cause of death could not be ascertained. [Id. at 94].
Both died before the fire. [Id. at 94, 96]. The blood on infant Daronte’s T-shirt was determined to
be the Petitioner’s. [App. H(3) at 22-23]. Eleven days after the crime, Petitioner was arrested in
North Carolina, where he’d fled to and received medical treatment for several sharp force trauma
wounds on his hands and arms. [App. H(2) at 157-60, 231]. Lastly, State witness Joseph Medina
testified that Petitioner had confessed a role in the crime to him. [App. H(3) at 89, 95].
Petitioner took the stand in his own defense and testified that: Shortly after arriving in
Martinsburg to visit Joseph Medina (Id. at 221 -22)—and after having met Angela, visited and stayed
the night at her home on several occasions, and met and interacted with her family (Id. at 223-27)—a
6.

dispute arose between he and Medina over the theft of Medina’s girlfriend’s (Chareese Davis) laptop
computer from her home on the morning of June 3, 2010.2 As a result of this dispute, the former
friends began issuing threats of violence to one another. [Id. at 238-43]. For example: Petitioner told
Medina that when he saw him he “was going to smack him” (Id. at 241-42); Medina told Petitioner
that he would come to Angela’s home and “kill you, that pill-popping [girl] of yours and anybody
else” there. [Id. at 246]. As a result of this specific threat, Petitioner called the police. [Id. at247-63].
Beginning at 12:57 p.m., Petitioner called in rapid succession, first, 911, and then two other
local law enforcement agencies to report Medina’s threat. [Id.]. Remaining anonymous, Petitioner
advised these agencies that Joseph Medina was threatening to go to someone’s home and kill
everyone there, including two children. [Id. at 262-63]. Petitioner also provided authorities a detailed
description of Medina andinformed them of his hangouts. [Id. at 250, ”262-64]. Petitioner’ scell
phone records, a police audio recording of a portion of one of his calls, and a police generated CAD
sheet describing his complaint were presented to the jury in support ofhis testimony. [Id. at 247-63].
Between the 3rd and 4th of June, Petitioner, in an attempt to locate Medina, offered $300 for
information on Medina’s whereabouts. [App. H(4) at 144-45]. Unable to locate Medina, and anxious
about he and Medina’s ongoing feud, Petitioner attempted to reconcile with his former friend,
reaching out to him via text, relaying to him the sentiment: “let’s let this [beef] go, we’re good.” [Id.
at 66-67]. Medina responded with a similar sentiment, texting Petitioner: “You are fam.” [Id.].
The next day, on June 5, 2010, Petitioner went to Angela’s home to celebrate his birthday.
[App. H(3) at 265-67]. At about 12:30 a.m., two men unexpectedly showed up at Angela’s home
claiming Angela owed them money for drugs. [Id. at 269-73]. After the men left, Angela informed
Petitioner that she met the two men through Joseph Medina on the day she was in Capital Heights
looking for heroin. [Id. at 275]. Angela further informed Petitioner that the two men had never been
to her home before and that she had no idea how they knew where she lived. [Id. at 284].
2 Testimony at trial conflicted as to who actually stole the laptop (Petitioner or Medina), but,
ultimately, Petitioner wound up in sole possession of the pilfered item.
7.

On hearing this, Petitioner concluded that Medina had shown or told these men where Angela
lived, and he immediately began calling and texting Medina, to which he got no response. [Id. at
282-84]. About an hour later, the same two men came back to Angela’s home, this time brandishing
weapons; at which time they attacked and terrorized the occupants of the home, which included
assaulting the Petitioner with their fists, a knife, and a gun; robbing the Petitioner of his money3;
attacking and killing Angela and Andre; and sending the Petitioner scrambling for his life, injured
and bleeding, into the dense woods behind Angela’s home. [Id. at 285-302]. Hiding in the woods for
several minutes, Petitioner heard a nearby car engine turn over, several car doors slam shut, and a
car accelerate away. [Id. at 304]. On exiting the woods, Petitioner re-entered Angela’s apartment,
saw that fires had been set in the bathroom and atop the dead bodies of both Angela and Andre, and,
after removing Daronte (wfio’d been left in the apartment unharmed) from the home, attemptedlb
salvage the bodies of Angela and Andre from the rapidly spreading fire. [Id. at 305-06]. Unable to
safely do so, Petitioner exited the apartment, carried Daronte up the private road/driveway to the
parent’s residence and beat on two sets of doors there in an effort to awaken someone inside. [Id. at
307-08]. Getting no response, and growing extremely anxious—and after succumbing to the fear of
“the magnitude of the situation”—Petitioner placed Daronte on a lawn chair on the back porch of
the parent’s residence and fled. [Id. at308-09]. Petitioner ultimately made his way to North Carolina
where he received medical attention for his injuries suffered on the night of the attack. Medical
records, pictures of Petitioner’s injuries, and expert testimony indicating that Petitioner’s injuries
were consistent with injuries sustained while in a defensive stance or posture were presented in
support of Petitioner’s testimony. [Id. at 310-20; and App. H(4) at 169-70, 177].
During his flight from the area, Petitioner made phone contact with Medina and confronted
him about his suspected role in the incident. Medina denied a role in the incident but acknowledged
that he was aware that the assailants “were already coming over there but they said you got smart
3 Petitioner testified that during this robbery, one of the assailants specifically referred to Ms.
Davis’s stolen laptop, saying to the Petitioner: “I want that laptop too.”
8.

with them so they decided to rob you too.” [App. H(3) at 313-15]. Medina later indicated that the
only thing he’d gotten “out of the situation” was Angela’s large flat screen television. [Id. at 325].
Lastly, a record of Petitioner’s text sent to Mr. Devonshire on June 7, 2010, was presented
to the jury, which read: “My condolences to your family. I’m truly sorry for your loss. I tried to stop
it. I tried to protect Angie and the baby from them. I wasn’t able to. I’m sorry.” [Id. at 323-24].
Petitioner testified that he sent this text message to Mr. Devonshire because he “felt terrible for the
family,” “felt terrible for fleeing the scene without telling them anything,” and “felt partially at fault
because if not for [his] beef with Medina... Angela and Andre would still be alive.” [Id. at 324].4
During cross-examination, and over defense counsel’s objection, the prosecutor first
questioned Petitioner about a violent fictional novel he’d authored over ten years previously. [App.
77(?/atT4-32]. Immediately thereafter, the prosecutor asked Petitioner: ..
Q. And you told us today that you wrote this work of fiction and you’ve told us this story
that you’ve told us about what happened on the night of the events and that particular story
was never told to anyone of law enforcement [App.H(4) at 32:17-21]

4 The State’s case-in-chief presented other facts and circumstances which tended to corroborate
the defense theory of the case as well, namely: (1) Mr. And Mrs. Devonshire testified that Angela had
such a serious drug problem that her newborn child, Daronte, had been bom addicted to heroin; and that
Angela had recently begun committing crimes in an effort to support her drug habit. [App. H(2) at 40-43,
67-68, 88-90]. (This testimony tended to support the defense theory that Angela had an outstanding drag
debt due to her addiction.) (2) On the morning of the crime, no one in the parent’s residence heard or saw
the multiple emergency vehicles that had sped onto their property, right past their bedroom window, to
the roaring fire at the end of their private road/driveway; no one in the parent’s residence heard or saw
the numerous emergency personnel members milling about their property and banging on their door in an
attempt to awaken them for upwards of 15 to 30 minutes after arriving on the property. [Id. at 16, 50-51,
75]. (This evidence tended to support the defense theory that foreign persons and vehicles could very
well have entered the Devonshire property that morning without the parents being aware of it.) (3) State
witness Candace Fisher testified that she was with Medina in the hours just before the crime, and that
Medina had an unknown number of his “friends or crew” on stand-by near his hotel room to have sex
with her that night. [Id. at 237-40], (This testimony tended to support the defense theory that Medina had
any number of friends or associates around him in the hours just before the crime; men who he could
have sent or escorted to Angela’s home just a few short hours later.) And (4) State witness Katie
Draughon testified that the day after the crime, Petitioner contacted her by phone and told her that at the
time of the incident he “had been attacked by his friends and robbed.” [Id. at 224], (This testimony
tended to support the defense theory that Petitioner not only believed that Joseph Medina (Petitioner’s
former friend) had played an integral role in the crime at issue, but also that Petitioner had expressed that
belief to someone immediately after the crime.)
9.

Petitioner’s counsel objected. At sidebar, though failing to sustain counsel’s objection, the court did
rule that Petitioner’s “pre-arrest silence is allowed in[,] [his] [p]ost-arrest silence isn’t.” [Id. at 34].
Just seconds after the sidebar had ended, the prosecutor asked Petitioner the following:
Q. You did not tell anyone the story you told us yesterday prior to taking the stand; is that
[Id. at 35:13-15]
correct?
Petitioner’s counsel objected to this question as well, and moved to strike, stating:
[Petitioner’s Counsel]: Objection. Move to strike based on the ruling. Unless I totally
misunderstood what the Court The Court: Well, no. What I said - I’m going to allow that and leave it at that. I will
[Id. at 35]
overrule the objection based on that.
After this objection was overruled, the prosecutor immediately segued into questioning Petitioner
about-his-pre-arrest-failure to fully reveal to Mr.-Devonshire the version-of events he’d testified to----at trial. [Id. at 35-36]. During the remainder of cross and recross, the prosecutor lawfully referenced
Petitioner’s eleven days ofpre-arrest silence in other ways as well. [Id. at 61,65,76-77,117-18,120,
128,132]. Then, in ending her examination, the prosecutor once again focused the jury’s attention
on the two years of silence that came after Petitioner’s assertion ofMiranda and before his trial with:
Q. And in this instance, you’ve had two years to make up this story?
A. I didn’t make up any story, ma’am.
Q. And you’ve had two years to review all of the discovery, all of the pieces, all of the
elements A. I didn’t Q. - before you came here to testify?
A. I didn’t make up any story ma’am.
Q. But you’ve had two years to review absolutely every detail of this case?
A. If you want to look at it like that, yes, ma’am.

[Id. at 156]

During summation, the prosecutor argued:
“He studied the records. In every criminal case in West Virginia the State must hand to the
defendant everything we know about this case. He has had two years to go through each and
10.

every record in this case, each and every phone record, each and every cell record, each and
every statement. Everything we have he’s had the opportunity to do it.” \App. H(5) at 40]
“He never tells a living soul his story until he takes that stand.”

[Id. at 53]

“Remember that? He’s got two years to craft his story.”

[Id. at 54]

“He waits to be on the stand to craft his story. All of his pieces fit. They fit because you can
look at every piece of evidence and go oh, this must be what happened. This must be what
[Id. at 63-64]
happened. This may be what happened.”
“He’s crafted his story. He sat there slick and polished after two years and wrote his story
because if he fails in this story he goes to prison for the rest of his life so connect all the
[Id. at 106]
little dots.”
“It’s a story. He wrote a tale and he sat upon the witness stand and he told you that tale after
he looked at every sheet of paper that he went over it mile after mile, and he weaved and
[Id. at 107]
crafted it into a fine story.”
Petitioner’s counsel failed to obj ect to any part of the prosecutor’s summation; and on July 16,2012,
Petitioner was convicted of the crimes at issue. [Id. at 113-16],
D. Post-Trial Facts
Petitioner filed post trial motions, which were denied by the trial court on September 10,
2012. [App. H(6) at 1-13]. At that time, the court acknowledged that Petitioner’s post-arrest silence
had been attacked at trial, but stated that the prosecutor’s attacks were proper because the remarks
weren’t “in the traditional sense where you improperly comment upon well, ‘ifhe hadn’t done it why
didn’t he tell the cops he didn’t do it,’ along those lines. Here it was more, ‘he’s saying he is a
victim, why didn’t he tell the police he was a victim.’” [Id. at 8].
Petitioner filed a direct appeal of his convictions to the WV Supreme Court (“WVSC”),
which affirmed Petitioner’s convictions on June 5, 2014. State v. Prophet. 234 W. Va. 33, 762 S.E.
2d 602 (2014). In passing on the merits of Petitioner’s claims, and in addressing only the first 2 of
the 12 total post-Mf'rancfa-silence remarks challenged by the Petitioner, the WVSC concluded that
the 2 questions it had analyzed were “ambiguous and isolated” and were not “pursued improperly
into the realm of post-arrest silence.” [App. E at 18]. The WVSC failed to rule on the many post-

11.

Miranda-silence remarks made by the prosecutor during recross and summation, in which the
prosecutor suggested that Petitioner’s two years of silence after arrest and before trial was indicative
of guilt, indicative of perjury, and indicative of her assertion that the only reason his testimony was
so believable was because he took a two year post-Miranda opportunity to study the discovery.
After the WVSC’s ruling affirming his convictions, Petitioner timely filed a pro se Petition
for a Writ of Certiorari to the United States Supreme Court on September 8,2014; which was denied
on November 17, 2014. Prophet v. West Virginia. 135 S.Ct. 683, 684, 190 L.Ed. 2d 396 (2014).
Petitioner then submitted a habeas petition to the Circuit Court of Berkeley County; which,
without the benefit of an omnibus evidentiary hearing, was denied on October 28,2015. The WVSC
affirmed said denial in an Opinion dated June 21,2016. Prophet v. Ballard. W. Va. Lexis 566 (2016).
After the Supreme Court denied Petitioner a second timely filed Writ of Certiorari, Petitioner
filed a § 2254 petition, and subsequent Memorandum of Law in support thereof (App. F), to the
District Court of WV; which was summarily denied and dismissed on August 19, 2019. [App. B].
Petitioner then timely filed a Motion for a COA to the 4th Circuit Court of Appeals (App. G); which
was denied on October 15, 2020. [App. A]. Lastly, Petitioner timely filed a Petition for Rehearing
En Banc to the 4th Circuit Court of Appeals; which was denied on November 24, 2020. [App. D],
Hence, having received no justice in the State and lower Federal courts, Petitioner now prays
that this Honorable Court grants him a Writ of Certiorari in order to uphold his Constitutional rights
and to authoritatively settle some very troubling aspects of the State and lower courts’ handling of
his federal habeas corpus claims for relief.
SUMMARY OF THE REASONS FOR GRANTING THE WRIT
In the underlying criminal matter at bar, Petitioner was charged with and arrested for the
crime at issue. After his arrest, Petitioner clearly had a story to tell regarding the crime—as he had
already relayed significant portions of it, pre-arrest, to not only his son’s mother, Katie Draughon,
but to the victim’s father, Mr. Devonshire, as well—and likely would have told it to the authorities
12.

upon arrest if not for his having been govemmentally-induced to silence with Miranda warnings
assuring him that not only would anything he said be used to convict him of a crime later, but also
that he had the Constitutional right to remain silent and speak to a lawyer for legal advice before
submitting to an interview—and that the exercise of said rights would not be held against him. Based
on these assurances, Petitioner asserted his right to remain silent, requested an attorney, and was
subsequently appointed counsel by the State. Upon their initial meeting, Petitioner informed counsel
of his exculpatory version of events, advised the same that he wished to relay his version of events
to the State, and was advised by counsel not to speak to the State because elements of his story were
self-incriminating. Petitioner was then forced to trial by the State, and, in full accordance with the
law, presented his defense, publicly, before an impaneled jury of his peers. Upon taking the stand,
Petitioner was then attacked and impeached with the very po st-Miranda si 1 ence the government had
previously assured him he had the lawful and unpunishable right to maintain after arrest. At no point
before, during, or after this unlawful post-Miranda silence attack was the jury ever instructed that
it is the Constitutional right of every American citizen to remain silent upon arrest and that no
inference of guilt can lawfully be drawn against one for having exercised said right. (This issue
provides the Court the opportunity to revisit Miranda and Doyle in order to either reaffirm or
overrule the States’ federal obligation to advise its criminally accused of their rights to silence and
an attorney upon arrest—advice which, of course, could unduly compel one to silence.)
Additionally, the prosecutor repeatedly asserted through questioning and argument that
Petitioner’s due process-mandated entitlement to discovery evidence aided him in his alleged
deception of the jury, and that the only reason his testimony was so believable was because he
tailored his testimony to the discovery evidence. Petitioner contends that this prosecutorial assertion
was a violation of several of his Constitutional rights, went to the very heart of his defense, had a
direct and substantial impact on his trial, and can in no way be reasonably viewed as harmless. (This
issue appears to be one of first impression with the Court, and provides the Court the important
opportunity to definitively determine whether the U.S. Constitution is offended when a State
13.

impeaches a testifying defendant’s credibility with an assertion that he used due process-mandated
discovery evidence to tailor his testimony—especially when the record demonstrates that all of the
evidence beneficial to the defendant’s case was known by him long before discovery was disclosed.)
Petitioner’s trial was further rendered unfair when the trial court and prosecutor engaged in
manifold forms of misconduct. (This issue provides the Court the opportunity to determine whether
a trial court’s pretrial declaration that a defendant is “guilty” violates the Constitution and the
presumption of innocence established as the foundation of our criminal jurisprudence; and whether
Brechtfootnote 9 should apply to the forms of misconduct that occurred at Petitioner’s trial.)
Finally, the lower federal courts’ rulings in this matter have undermined the efficacy of the
AEDPA as intended by Congress, as the lower federal courts refused to assess Petitioner’s § 2254
Federal Habeas Corpus claims utilizing the correct and controlling “clearly established” TJ.S.
Supreme Court precedents, as is required by law and the functional intent ofthe AEDPA. (This issue
provides the Court the opportunity to provide the lower courts further guidance on this issue.)
REASONS FOR GRANTING THE PETITION
Question 1. Does a prosecutor’s remarks made at trial asserting that a defendant used his
govemmentally-induced “two years” of post-Miranda silence to tailor his trial testimony to his
“review of the discovery” evidence violate the U.S. Constitution (or is the claim at the very least
deserving of a COA), especially when considering that the defendant’s exculpatory story told at trial
was first conveyed to others before his arrest and was then told to counsel immediately after his
arrest and long before discovery evidence had been disclosed?
A. The State Court’s Decision Conflicts with Controlling Decisions of the Supreme Court
The State’s questions and remarks made regarding Petitioner’s “two years” of silence after
arrest and after having explicitly received and asserted his Miranda rights was a violation of this
Court’s express holdings in Doyle and its progeny, which hold: A prosecutor may not impeach a
defendant’s testimony with his silence after he has been advised of and invoked his right to remain
silent under Miranda v. Arizona. 384 U.S. 436, 444 (1966). Dovlev. Ohio. 426 U.S. 610, 611 (1976).
“The point of the Doyle holding is that it is fundamentally unfair to promise an arrested person that

14.

his silence will not be used against him and thereafter to breach that promise by using the silence to
impeach his trial testimony.” Wainwrisht v. Greenfield. 474 U.S. 284, 290-95 (1986). A Doyle
violation occurs when: (1) the prosecutor makes use of a defendant’s post-Miranda silence at trial
through questioning or during argument; and (2) the trial court permits such use by overruling
defense counsel’s legitimate objection. Greer v. Miller. 483 U.S. 746, 764-65 (1987).
During cross-examination, the prosecutor first asked Petitioner the following:
Q. And you told us today that you wrote this work of fiction and you’ve told us this story
that you’ve told us about what happened on the night of the events and that particular story
[App.H(4) at 32:17-21]
was never told to anyone of law enforcement Petitioner contends that this was an implicit comment on his post-Miranda silence, as the word
“never” used in the context of the question clearly implicates both pre- and post-Miranda silence.
After Petitioner’s counsel objected, the following discussion took place at sidebar:
[Petitioner’s Counsel]: I could be wrong but isn’t that commenting on prior statements?
She’s trying to say you didn’t tell anybody that. That’s his right until he comes to court.
The Court: He can say why he didn’t do it, but I think she’s entitled to say this is the first
time it has come up, yeah.
[Petitioner’s Counsel]: So I’m not arguing again, but I had this in another case in Morgan
County where the prosecutor made a reference to the Defendant never ...
The Court: Exercising his right to silence to the police officer. She can’t say you never told
it to the police or anything like that. Did you ever tell it to anyone. You can’t say when the
police got you[,] you didn’t tell them that, did you. This is one of those cases where there
could be an exception because he did make contact after the event to Mr. Devonshire and
she could say why didn’t you tell him[,] but you can’t - pre-arrest silence is not the same
as post-arrest. It’s statements to law enforcement that is exercising your right to silence so
you can’t ask him about anything about law enforcement.... But you can say he contacted
Mr. Devonshire after and you didn’t tell him things like that because that’s not exercising
your right to silence.

The Court: Pre-arrest. Pre-arrest silence is allowed in. Post-arrest silence isn’t.
[Petitioner’s Counsel]: After he was arrested he did - [Lt.] Harmison did try to interview
him and he asserted his Fifth Amendment right.
15.

The Court: All of that stays out. It has to be pre-arrest.
[Petitioner’s Counsel]: That was two years ago, right. Your Honor, just so we have a time,
pre-arrest silence was two years ago.
The Court: Unless he made a statement to someone - I mean, if it’s - if it’s non lawenforcement he made a statement.
[Petitioner’s Counsel]: Some snitch in the jail, sure.

[Id. at 33-35]

Despite the court’s seeming ambivalence on the matter and failure to sustain defense counsel’s
legitimate objection to the prosecutor’s improper question informing the jury that Petitioner’s “story
was never told to anyone of law enforcement”—(even though the court had just acknowledged that
such a question was unlawful when it said, “She can’t say you never told it to the police or anything
like that”)-—still, this sidebar discussion did establish that: (1) Petitioner had received and asserted
his 5th Amendment rights after his arrest and during an attempted custodial interrogation; (2)
Petitioner’s “pre-arrest silence is allowed in,” his “[p]ost-arrest silence isn’t”; and (3) Petitioner’s
pre-arrest silence had ended (and his ipost-Miranda silence had begun) “two years ago” upon his
receipt and assertion of his 5th Amendment privilege.
Additionally, it must be noted here that throughout this case’s long post-conviction journey,
the State and lower Federal courts have consistently placed special significance on the fact that
during the above-described sidebar, the trial court “instructed the prosecutor” not to comment on
Petitioner’s “post-arrest silence” [see App. B at 21; and App. E at 17); thereby implying that this
instruction was not only undoubtedly followed by the prosecutor, but also that it somehow cured the
prosecutor’s previously asked improper post-Miranda silence question informing the jury that
Petitioner’s “story was never told to anyone of law enforcement.” However, this notion seemingly
wholeheartedly embraced by both the State and lower Federal courts finds absolutely no support
anywhere in the trial record, and actually conflicts with the obvious fact of the matter, which is: The
16.

jury was not privy to the sidebar discussion between the trial court and the lawyers, and was
therefore wholly unaware of the court’s instruction to the prosecutor regarding the impropriety and
inadmissibility of her remark on Petitioner’s post-arrest silence. (In fact, the only thing the jury was
aware of in regard to the prosecutor’s improper question which did in fact infuse into the proceedings
Petitioner’s post-arrest silence, was the remark itself and defense counsel’s subsequent objection
thereto—which objection led to no in-court action perceivable to the jury, as the court never
sustained, either at sidebar or in open court, defense counsel’ s objection to the prosecutor’s improper
question; the court never condemned, either at sidebar or in open court, the prosecutor’s improper
question; the court never struck from the record the prosecutor’s improper question; and the court
never issued a cautionary or curative instruction to the jury regarding the prosecutor’s improper
question. These conspicuous failures on the part of the court no doubt left the jury with the distinct
impression that the prosecutorial post-Miranda silence question announcing that Petitioner’s “story
was never told to anyone of law enforcement” was not only a proper and admissible one, but was
also one well within their rights as jurors to consider later on when deliberating on Petitioner’s
culpability in the crimes at issue.) Therefore, with the jury having never been made aware of the
impropriety of the prosecutor’s above-quoted post-Miranda silence question—and though the State
and lower Federal courts have hung their hats on this faulty premise for so long—the trial court’s
sidebar instruction to the prosecutor to not comment on Petitioner’s post-arrest silence served no
practical purpose whatsoever (other than perhaps to confuse and distract the good reasoning of the
State and lower Federal courts). And this conclusion is proven especially true when considering the
fact that the prosecutor failed to for even a moment follow the trial court’s instruction not to
comment on Petitioner’s post-arrest silence, because just seconds after the sidebar had ended, the
prosecutor’s very next question to Petitioner was:

17.

Q. You did not tell anyone the story you told us yesterday prior to taking the stand; is that
[App.H(4) at 35:13-15]
correct?
Petitioner contends that this question, too, just like the one before it, was a comment on his postMiranda silence, as the words “prior to taking the stand” clearly refer to anytime prior to trial,
which would include post-Miranda. Petitioner further contends that this language was intentionally
used by the prosecutor to piggy-back on her first post -Miranda silence question above, in order to
unlawfully inform the jury that Petitioner had stood on his Constitutional right to silence after arrest
and “prior to taking the stand,” and that his trial testimony was the first time law-enforcement was
hearing his version of events. Therefore, and contrary to the State court’s unreasonable determination
on the matter, this question was clearly not about Petitioner’s pre-arrest silence, which was two years
ago and in the distant past, but was obviously about his post-Miranda silence which had ended just
“prior to [him] taking the stand”; and the jury would have naturally construed it as such.
Petitioner’s counsel objected to this question as well, and moved to strike, stating:
[Petitioner’s Counsel]: Objection. Move to strike based on the ruling. Unless I totally
misunderstood what the Court The Court: Well, no. What I said - I’m going to allow that and leave it at that. I will
[Id. at 35]
overrule the objection based on that.
The court, astonishingly, overruled this well founded objection, thereby not only permitting the
prosecutor to successfully make use of Petitioner’s post -Miranda silence at that particular time, but
also implicitly permitting her to further pursue this post-Miranda silence line of questioning and
argument later if she so chose, which she in fact soon did. As a result, and with just these first 2
prosecutorial post-Miranda silence remarks alone—both of which were objected to by counsel and
overruled by the court—a due process violation under Doyle had already occurred. [See the two-part
Doy/e-violation test set forth in Greer.') And, thus, the prosecutor’s numerous post-Miranda silence
attacks launched against Petitioner’s testimony later, though remarkably extensive and egregious,
was just the proverbial icing on the already baked post-Miranda silence cake.
During recross-examination, the prosecutor reinitiated and successfully concluded her post18.

Miranda silence questioning of Petitioner with:
Q. And in this instance, you’ve had two years to make up this story?
Q. And you’ve had two years to review all of the discovery, all of the pieces, all of the
elements ... before you came here to testify?
Q. But you’ve had two years to review absolutely every detail of this case?

[Id. at 156]

Petitioner contends that this particular line of questioning was a clear and flagrant attack on his postMiranda silence as well, as his post-Miranda silence had already been established as having begun
“two years ago,” and as Petitioner’s counsel specifically made this point clear earlier when he said,
“That was two years ago, right. Your Honor, just so we have a time, pre-arrest silence was two years
ago.” [Id. at 34:19-21]. Additionally, discovery evidence isn’t provided to a defendant until after
_arrest, and, in this ease,_until_after^Petitioner had received and asserted his Miranda rights, soJhere
is no question that the prosecutor’s above questions regarding Petitioner’s “two years to review all
of the discovery” and “make up a story” consistent with the “detail[s] of th[e] case” falls within the
Constitutionally-protected two year time frame of silence that came after Petitioner received and
asserted Miranda and before he was brought to trial, which is exactly what the many post-Miranda
Constitutional-safeguards prohibit the state from attacking at trial. (SeeDoyle v. Ohio, supra., at 618:
“it would be fundamentally unfair and a deprivation ofdue process to allow an arrestee’s silence
to be used to impeach an explanation subsequently given at trial after he had been impliedly assured
by the Miranda warnings that silence would carry no penalty. ”)
Petitioner contends that the prosecutor’s three above-quoted questions were just a more artful
way of again pointing out to the jury that not only had Petitioner stood on his Constitutional right
to silence for the two year period after his arrest and before his trial—and that this was indicative of
his guilt—but also that he had stood on his Constitutional right to silence during that particular two
year period of time for the specific purpose of studying the discovery evidence so that he could
fabricate his believable, yet wholly false, trial testimony. This prosecutorial assertion is probably the
single most unduly prejudicial assertion a prosecutor can make against a testifying defendant in a
19.

criminal trial; and it flies in the face of everything the 5th Amendment right to due process of law,
Miranda, Doyle, Hale, and any other case dealing with this issue seeks to safeguard. (See Dovle. at
616-17: “The State argued that the discrepancy between an exculpatory story at trial and silence
at the time of arrest gives rise to an inference that the story was fabricated somewhere along the
way, perhaps tofit within the seams ofthe State’s case as it was developed at pretrial hearings... We
have concluded that the Miranda decision compels rejection of the State’s position. ”)
Additionally, the prosecutor buttressed her foregoing attacks on Petitioner’s post-Miranda
silence by inundating the jury with assertions made in her closing argument that Petitioner’s postMiranda silence was indicative of guilt, indicative of perjury, and indicative of her assertion that the
only reason his testimony was so believable was because he took a two-year post-Miranda
opportunity to tailor his Testimony to the discovery evidence. In fact, any ambiguity in the
prosecutor’s initial post-Miranda silence questions was made clear by her remarks made in
summation, as said remarks were obviously designed to raise unlawful inferences to Petitioner’s
post -Miranda silence by suggesting that his exculpatory story was a post-Miranda fabrication: “He
studied the records. In every criminal case in West Virginia the State must hand to the defendant
everything we know about this case. He has had two years [of post-Miranda silence] to go through
each and every record in this case, each and every phone record, each and every cell record, each and
every statement. Everything we have he’s had the opportunity to do it.” [App. H(5) at 40]. “He never
tells a living soul his story until he takes that stand.” [Id. at 53]. “Remember that? He’s got two years
[of post-Miranda silence] to craft his story.” [Id. at 54]. “He waits to be on the stand to craft his
story.” [Id. at 63-64]. “He’s crafted his story. He sat there slick and polished after two years [ofpostMiranda silence] and wrote his story.” [Id. at 106]. “It’s a story. He wrote a tale and he sat upon the
witness stand and he told you that tale after he looked at every sheet of paper that he went over it
mile after mile, and he weaved and crafted it into a fine story.” [Id. at 107]. The prosecutor’s
argument essentially turned Petitioner’s post-Miranda silence into a tacit admission ofboth guilt and
perjury, thus standing the protections of Miranda on its head.
20.

In all ofthe prior State court rulings regarding this matter, not once—NOT ONE TIME! —has
any State court so much as acknowledged, let alone fully and fairly analyzed and ruled upon, all of
the many glaring and egregious post-Miranda-silence remarks made by the prosecutor at Petitioner’s
trial;5 and this despite Petitioner’s repeated challenges to each of the above remarks in all of his post­
conviction briefings to the State courts. Instead, the State courts repeatedly elected to analyze and
rule upon only the first 2 prosecutorial questions asked of Petitioner during cross-exam, which the
State courts then unreasonably determined to be “ambiguous and isolated” remarks that were
construed by the jury as questions referring only to Petitioner ’ s pre-arrest silence. [App. E at 16-18],
However, the State court’s determination goes against all reason, because neither the
prosecutor’s first 2 questions at issue—nor her numerous other post -Miranda silence questions and
remarks that came later—drew any pre-afresTtririe distinctions for the jury, and each contained
wording specifically inclusive and encompassing of Petitioner’s post -Miranda silence. In fact, the
only clear time distinction set out in the prosecutor’s challenged remarks for the jury to consider and
deliberate on was the time distinction focusing the jury’s attention on the “two years” of silence that
came after Petitioner’s arrest and assertion of his Miranda rights and before his trial.
Moreover, there were never any curative or limiting instructions given to assist the jury in
recognizing or determining the distinction between the lawfully considered pre-arrest silence of the
Petitioner and the unlawfully considered post-Miranda silence of the same. In fact, there were no
cautionary, limiting, or curative instructions given to the jury on this issue at all; thus supporting the
reasonable conclusion that the jury could have very well impermissibly convicted Petitioner solely
on the basis of his post -Miranda silence, which, of course, is unconstitutional.

5 The Petitioner contends that at least 5 of the 8 factors described in Sumner v. Mata. 455 U.S.
591, 592 n.l (1982), which annul a State court’s presumptive correctness, are present in this ground.
Specifically, points 1 (merits not resolved), 2 (fact-finding procedure inadequate), 6 (failure of State
court to provide full, fair, and adequate hearing), 7 (denial of due process in State court proceeding), and
8 (factual determinations not fairly supported by the record) of Sumner are all present in this ground,
thereby nullifying 2254(d)’s presumption of correctness to state-court findings of facts.
21.

Accordingly, the State court’s decision on this matter was based on an unreasonable
determination of the facts in light of the evidence and was contrary to the clearly established federal
law of Doyle and its progeny. Thus, a Writ of Certiorari is prayed.
B. The Lower Federal Court’s Decision Conflicts with Decisions of the Supreme Court
In Petitioner’s Doyle-violation claim raised in his § 2254 habeas petition to the lower court,
Petitioner alleged that at trial the State impeached him utilizing his post-Miranda silence, and that
the State court’s decision finding otherwise was: (1) based on an “unreasonable determination of the
facts in light of the evidence,” and (2) was “contrary to...clearly established federal law” as
determined in Doyle and its progeny. Petitioner further asserted that the State court’s application of
Jenkins v. Anderson. 477 U.S. 231 (1980) to the facts of his case was a clear misidentification of the
correct controlling authority from the Supreme Court’s cases. [App. F at 4-14; and App. G at 3-8].
The District Court—having failed to assess Petitioner’s claim under the strictures of Doyle
and its progeny—disposed of Petitioner’s claim in an Order for Summary Dismissal asserting that
the State court recognized that the two prosecutorial questions it had analyzed and ruled upon
‘“potentially could have been construed as referring to Petitioner’s post-arrest silence[,]’” but also
could have been construed as questions referring to Petitioner’s pre-arrest communication with the
victim’s father, Mr. Devonshire, and, therefore, “the state court’s determination that they [were] pre­
arrest was reasonable”; further, “even if the comments were post-arrest, they were ambiguous and
isolated and did not infect the trial with unfairness as to violate due process.” [App. B at 21-22].
The District Court failed to address the fact that the State court’s determination of
Petitioner’s Doyle-violation claim omitted the acknowledgment and analysis of at least 10
prosecutorial post -Miranda silence remarks challenged by the Petitioner; and that the State court’s
failure to analyze and rule upon said remarks contributed to not only its unreasonable determination
of the facts in light of the evidence, but also to its misidentification of Jenkins as the correct
controlling authority from the Supreme Court’s precedents.
In Petitioner’s subsequent Motion for a COA to the 4th Circuit Court of Appeals, Petitioner
22.

argued that reasonable jurists would find the District Court’s assessment and summary dismissal of
his Doyle- violation claim debatable or wrong because the Supreme Court has specifically addressed
the Doyle issue in many of its cases and, in each and every instance, has found comments similar to
and even much less severe than the ones presented here to be violative of due process. See Greer v.
Miller. 483 U.S. 756, 759-64 (1987) (where it was held that a prosecutor’s single question to a
defendant of “Why didn ’tyou tell this story to anybody when you got arrested? ” (at 759) is a postMiranda silence inquiry which Doyle prohibits (at 764)). And see Brecht v. Abrahamson. 507 U.S.
619, 628-29 (1993) (where it was held that “the State’s references to petitioner’s..failure to come
forward with his version of events at anytime before trial...crossed the Doyle line ”).
Petitioner further argued that reasonable jurists would find debatable the District Court’s
concurrence with the" State court determination that the prosecutorial 'remarks at issue were
“ambiguous and isolated,” as there was nothing “ambiguous” about the prosecutor’s Doyle- violating
assertion that: Petitioner’s “story was never told to anyone oflaw enforcement...prior to taking the
stand” because he was using that “two year” period ofsilence “to review all ofthe discovery ” and
“weave and craft a fine story ’’ consistent with the “details of the case. ” This proves he’s guilty!
Nor were these Doyle- violating remarks in any way “isolated,” as the prosecutor repeatedly
harped on Petitioner’s post-Miranda silence as many as 12 different times—the remarks spanning
from cross-examination, to recross, to closing arguments, and, finally, to rebuttal closing.
Petitioner further argued in his Motion for a COA that reasonable jurists would also find
debatable the District Court’s espousal of the State court’s opinion that Jenkins v. Anderson permits
the types of prosecutorial attacks on silence the Petitioner is challenging here, because, in analyzing
Jenkins, the prosecutorial remarks challenged in that case were by all accounts pre-arrest silence
remarks that did not encompass Jenkins’ post-Miranda silence. Jenkins. at 233-34. Petitioner
Jenkins went on to argue that the State’s use of his pre-arrest silence was unconstitutional. The
Supreme Court, however, disagreed, holding that the silence exploited by the prosecutor in that case
had occurred before Jenkins had been taken into custody and given his Miranda warnings, and,
23.

therefore, no governmental action had induced Jenkins to silence prior to his arrest; and, thus, the
5th Amendment did not prevent the use of his pre-arrest silence to impeach his credibility. Id. at 240.
Unlike petitioner Jenkins, Petitioner Prophet is not challenging the pre-arrest silence remarks
made at his trial. (For instance: Petitioner has never challenged as unconstitutional the prosecutorial
remarks made regarding his pre-arrest communication, or lack thereof, with the victim’s father, Mr.
Devonshire. So the State and District courts’ persistent reliance on that prosecutorial pre-arrest
silence remark to dispute Petitioner’s post-Miranda silence claim is baffling. [App. B at 22].) The
prosecutorial remarks challenged by the Petitioner specifically exploited the govemmentally-induced
silence that came after Petitioner’s arrest and receipt of Miranda warnings, not before; and,
therefore, the 5th Amendment does prevent the use of such silence to impeach his credibility. Id. In
fact~”ff6m the very outset of his post conviction proceedings, Petitioner has been consistent "in
maintaining that only the prosecutorial questions and remarks inclusive and encompassing of his
post-Miranda silence (which questions and remarks are quoted in their entirety above) were
violative of Doyle and his right to due process. For example: When the prosecutor told the jury that
Petitioner’s “story was never told to anyone of law enforcement[,]” or that he “did not tell anyone
[his] story...prior to taking the stand[,]" these remarks, though also encompassing Petitioner’s pre­
arrest silence (as words as broad as “never" and “prior to taking the stand” naturally would), are
specifically inclusive and encompassing of his post-Miranda silence as well. Or, when the
prosecutor told the jury that Petitioner “had two years to make up [his] story[,]” and that he “never
tells a living soul his story until he takes that stand[,]” and that he “waits to be on the stand to craft
his story,” these comments, too, specifically identify and highlight post -Miranda silence time
periods, and are thus clearly inclusive and encompassing of Petitioner’s post-Miranda silence.
With that in mind, Petitioner fully agrees that if the challenged prosecutorial questions and
remarks had referred only to his silence prior to receiving and asserting his Miranda rights, then
Jenkins would control his claim and the lower Federal courts would be justified in concluding that
no Constitutional violation under § 2254(d) had occurred. However, that is not the case here. Here,
24.

the challenged prosecutorial remarks were, at their most benign, phrased broadly, encompassing both
the pre- and post-Miranda silence of the Petitioner; and, at their least benign, phrased narrowly,
specifically identifying and highlighting Petitioner’s “two years” of post -Miranda silence.
Therefore, Jenkins is not the correct governing legal rule for the facts of this case, because
Jenkins pertains only to prosecutorial questions and remarks on pre-Miranda silence, whereas the
case at bar contains prosecutorial questions and remarks inclusive of and encompassing both preand post-Miranda silence. Hence, the State and District courts’ reliance on Jenkins to dispute
Petitioner’s Doy/e-violation claim is painfully misguided, and, if applied to the facts of this case,
would amount to an unreasonable application of federal law that only works to contradict the
governing legal rule set forth in Doyle and its progeny, specifically Brecht v. Abrahamson. supra.
In Brecht, a case in which the Supreme Court confronted a setof facts wherein both the preand post-Miranda silence of a defendant was attacked at trial, the Supreme Court held that the
State’s pre-Miranda silence attacks in that case were “entirely proper[,]” but, that its post-Miranda
silence attacks “crossed the Doyle line.” Brecht. at 628-29. Your Petitioner is making that exact
same argument here. Here, the State’s pre-Miranda silence attacks on the Petitioner were entirely
proper, however, its post-Miranda silence attacks “crossed the Doyle line.” [Id. ] Therefore, the State
court’s apparent reading of the Jenkins decision to mean that: Ifpre-arrest silence is mentioned
alongside post-Miranda silence, then it is reasonable to conclude that the jury may have construed
the post-Miranda silence remarks as pre-arrest silence remarks, is contrary to the Brecht holding.
It’s clear from an objective analysis of the record that the State court committed two
foundational errors when deciding Petitioner’s Doyle-violation claim. The State court erred, first,
by misconstruing the nature of Petitioner’s claim of Doyle error, characterizing it as being based only
on the first 2 improper post-Miranda silence questions asked of him by the prosecutor during crossexamination, and then analyzing and ruling only upon those 2 questions (App. E at 16-18); when,
in fact, Petitioner’s claim ofDoyle error was that the prosecutor committed said error multiple times
throughout the course of the trial—the remarks coming at least 12 different times and spanning from
25.

cross-examination, to recross, to closing arguments, to rebuttal closing.
The State court’s second error came when it allowed its objectively unreasonable
determination of facts lead it to its misidentification of Jenkins as the correct and controlling
Supreme Court precedent to the facts of Petitioner’s claim. [Id.].
Therefore, since the State court looked only to the first 2 prosecutorial cross-examination
questions touching on Petitioner’s post-Miranda silence without looking to the 10 other questions
and remarks touching on Petitioner’s post-Miranda silence as well—as it says it did, and as is
reflected in the record6—then the State court clearly failed to fully address Petitioner’s claim, and
thereby undermined the validity of its determination of facts and ultimate adjudication ofPetitioner ’ s
claim under the strictures of AEDPA. Consequently, these two State courts errors of both fact and
law have necessarily triggered habeas corpus relief under the functional dictates of AEDP A.
Petitioner contends that reasonable jurists would agree with the analysis of fact and law
articulated above, and would therefore find the District Court’s assessment and summary dismissal
of Petitioner’s claim debatable or wrong. Thus, the 4th Circuit Court’s decision denying Petitioner
a COA for said claim is in direct conflict with relevant decisions of the Supreme Court and the
governing standard for habeas relief under AEDPA. Accordingly, a Writ of Certiorari is prayed.
C. This is a Question of Significant Importance that Should be Settled by the Court
In addition to the above, this case also involves a question of exceptional importance because
not only were the prosecutorial post-Miranda silence remarks in question a violation of due process
under Doyle and its progeny, but also because impeachment of a defendant by a prosecutorial
assertion that the defendant’s receipt of “discovery evidence” was used by him to tailor his trial
testimony is fundamentally unfair and a distinct and separate Constitutional violation that implicates

6 See Aw. A at 18: Wherein the WVSC, in affirming Petitioner’s convictions, never mentioned
the prosecutor’s post-arrest silence remarks made during closing arguments, and specifically held: “We
find that the prosecutor did not improperly cross-examine the petitioner regarding his post-arrest
silence”; and “As a result, we find that the prosecutor did not improperly cross-examine the petitioner
concerning his post-arrest silence.” Id.
26.

a defendant’s rights to exculpatory evidence, the effective assistance of counsel (which includes the
legally sacred attorney-client privilege), and to testify in his own defense—because said prosecutorial
assertion transforms a defendant’s 5th and 6th Amendment rights into an automatic burden on his
credibility. Additionally, to force a defendant to either speak to law enforcement prior to taking the
stand or be accused of tailoring his testimony to the discovery evidence would be the equivalent of
compelling him to give evidence against himself. Up to this point, no court has even attempted to
reasonably address and adjudicate these glaring Constitutional implications.
Petitioner has scoured every legal book and utilized every legal search engine available to
him in an effort to find any case, other than his own, where a prosecutor was permitted to invoke a
defendant’s Constitutional right to exculpatory evidence as a means to impeach the defendant’s trial
Testimony, and, not surprisingly, Petitioner hasTailed to find one other case anywhere in the country.
Because of this extensive search, Petitioner is confident that no such other case exists. And this is
likely because of the fact that a prosecutorial attack invoking a defendant’s right to discovery
evidence is not only an inherent and obvious attack on a defendant’s post-Miranda silence, in
violation of Doyle, and an inherent and obvious attack on a defendant’s attorney-client privilege, in
violation of Weatherford v. Bursev. 429 U.S. 545, 552-58 (1977), but also because it is transparently
odious to the due process of law clauses of the 5th and 14th Amendments, which allow for the
criminally accused to know of and have access to certain evidence against them in preparation for
trial. Bradv. 373 U.S. 83 (1963). For a prosecutor to take this due process-mandated entitlement of
providing known exculpatory evidence to criminal defendants, and fashion that entitlement into a
weapon to then attack the defendant’s testimony at trial, is the epitome of fundamental unfairness.
Further, for a prosecutor to stand before a jury and declare that the only reason a defendant’s
testimony is so believable is because he tailored his testimony to the discovery evidence prior to trial
is a declaration that would certainly tend to persuade a jury to reject a defendant’s exculpatory
defense, no matter how true or compelling; and is an accusation that provides no distinction between
the innocent and the guilty—as all defendants, innocent and guilty alike, are entitled to discovery
27.

evidence. Thus, the innocent are tarnished by and just as vulnerable to this accusation as the guilty.
Additionally, the prosecutor’s argument in this instance is that much more egregious simply
because it is contradicted by the record evidence in such an obvious way, as all of the evidence
beneficial to Petitioner’s defense was known by him well before his arrest or the State’s disclosure
of discovery. For example: Petitioner’s dispute with the actual orchestrator of this crime, Joseph
Medina, was known by Petitioner-well before his arrest or the State’s disclosure of discovery (App.
H(3) at 241-44); the threats made back-and-forth between Petitioner and Medina were known by
Petitioner well before his arrest and the State’s disclosure of discovery (Id, at 244-47); the calls to
police reporting Medina’s threats against the victims of this crime were known by Petitioner well
before his arrest or the State’s disclosure of discovery (Id. at 247-63); the text message to Mr.
'Devonshire sent by the Petitioner immediately after the crime—wherein Petitioner alluded to certain
aspects of his version of events, acknowledging that he was at the scene of the crime when the crime
took place and that he was sorry he was unable to protect the victims from “them” (the assailants)—
was known by Petitioner well before his arrest or the State’s disclosure of discovery (Id. at 323-24);
and the list goes on and on. And again, it cannot be overstated that Petitioner advised his counsel
immediately after his arrest of the exact same version of events he testified to at trial.
In closing, the State and 4th Circuit Federal Courts have set a dangerous, new precedent in
this case, which, by their rulings, now allows prosecutors in those jurisdictions to invoke defendants’
due process-mandated receipt of discovery as a means to impeach defendants’ credibility at trial.
Therefore, this question: “Whether a prosecutor’s invocation of a defendant’s receipt of discovery
evidence as a means to impeach his trial testimony—especially when his story told at trial was first
conveyed to his attorneys and others long before discovery had been disclosed in the case—offends
the U.S. Constitution?” is of such exceptional importance a Writ of Certiorari is prayed.
D. The Doyle error was not harmless
In Doyle, this Court held: “A judgement of a State...court affirming a...conviction...will be
reversed by the U. S. Supreme Court, where the State uses post arrest silence after receipt of Miranda
28.

warnings and where the State has not claimed...harmless error[.]” Dovle. at 619-20.
As described above, the State clearly and repeatedly used Petitioner’s post-arrest silence after
his receipt and assertion of Miranda, the State used said silence extensively and prejudicially, and
the State has never claimed that the use of such was harmless error. And though the burden is on the
State to demonstrate harmlessness, nevertheless, Petitioner feels compelled to briefly demonstrate
that the above-described Doyle error can in no way be reasonably viewed as harmless.
In determining harmlessness, this Court has handed down the following factors to be
considered: (1) whether the comments were isolated or pervasive (Donnelly. 416 U.S. at 646); (2)
whether they were deliberately or accidentally placed before the jury (Id. at 647); (3) the degree to
which the remarks had a tendency to mislead and prejudice the defendant (Darden. 477 U.S. at 182;
Young. 4 70 U. S. at 12); (4) whether the remarks manipulated or misstated the evidence or implicated
other specific rights (Darden, at 182; Berzer v. United States. 295 U.S. 78, 84-85); (5) the strength
of the overall proof establishing guilt (Darden, at 182); (6) whether the remarks were objected to by
counsel (Darden, at 182-83 and n. 14; Younz. 470 at 13); and (7) whether a curative instruction was
given by the court (Darden, at 182; Greer, at 766 n. 8; Caldwell v. Mississippi. 472 U.S. 320, 339).
First, as discussed at length above, the prosecutor’s remarks were pervasive, continuous, and
thoroughly developed, as the prosecutor repeatedly informed the jury of Petitioner’s post-Miranda
failure to inform law enforcement of his exculpatory version of events. The prosecutor’s repeated
allusion to this point assured that it could not have been lost on the jury.
Second, said remarks were deliberately placed before the jury, stressed an inference of guilt
to the same, and were specifically designed to render Petitioner’s version of events and evidence
worthless. Also, the prosecutor was instructed by the court not to comment on Petitioner’s post-arrest
silence; nevertheless, the prosecutor persisted in her attacks on Petitioner’s post-arrest silence.
Third, the prosecutor’s remarks had significant potential to mislead the jury and prejudice
the accused, as the prosecutorial remarks raised the pointed assertion that Petitioner “never tells a
living soul his story until he takes that stand,” which implied to the jury that Petitioner hadn’t even
29.

conveyed his version of events to his attorneys before taking the stand—which was an outrageous
declaration and patently untrue; and the prosecutor knew very well her declaration was untrue, as
she was present at the pretrial hearing when Petitioner’s counsel proffered a partial explanation to
the court regarding Petitioner’s version of events well before Petitioner took the stand. [App. H(l)
at 20-21]. Additionally, the prosecutor openly acknowledged that Petitioner’s testimony was
plausible and believable, but then sought to overcome the believability of said testimony by the
unlawful and unsubstantiated accusation of tailoring and perjury, which prejudiced the Petitioner.
Fourth, the prosecutor’s remarks manipulated and misstated the evidence and implicated
other specific rights in many ways. For example, the prosecutor’s remark that the Petitioner “had two
years to go through each and every record in the case, each and every phone record, each and every
cell record, each and every statement,” was wildly misleading and unduly prejudicial, as the only
statement of a trial witness Petitioner ever laid eyes on was that of Joseph Medina. Petitioner never
read, heard, or discussed any other statement by any other witness who testified at his trial. Further,
said remark also specifically implicated Petitioner’s rights to silence, evidence, and counsel.
Fifth, as noted in the Statement of the Case above, the strength of proof establishing
Petitioner’s guilt was not overwhelming, as the State’s case establishing Petitioner’s guilt relied
primarily on circumstantial evidence (which could be argued either way), and the testimony of
Joseph Medina, whose testimony was questionable for several reasons, including: (1) Medina, a
convicted but not yet sentenced felon in an unrelated case, had entered into a plea deal with the State
to testify against the Petitioner for leniency. [App. H(3) at 122-28], (2) Medina initially spoke to
police about the crime two years before Petitioner’s trial, and, though he clearly and repeatedly
attempted to implicate Petitioner in the crime, he never once mentioned or alluded to a confession
made by the Petitioner. [Id. at 91-92, 115-16]. (3) Medina’s testimony that Petitioner confessed a
role in this crime to him was incredible, as Petitioner had called the police on Medina only days
before the crime, and, as such, there is no rational argument that can then be made to make sense of
a claim that Petitioner would then confess to Medina the murders of the very people Petitioner had
30.

reported Medina as having threatened. (5) And, lastly, from the very moment Medina took the stand
he was contradicting himself and fumbling over his story. [Id. at 64-96]. He was then cross-examined
and impeached on every primary type of impeachment evidence imaginable. [Id. at 96-138].
Additionally, while Medina testified that Petitioner had confessed a role in this crime to him,
Petitioner testified that Medina was integrally involved in the crime and that Medina’s testimony
regarding a confession made by the Petitioner was false testimony specifically invented by Medina
to ensnare the Petitioner for the crime Medina and his cohorts had committed. Only one of them
(Petitioner or Medina) could’ve been telling the substantive truth. The one telling the truth would,
therefore, likely be the innocent party; and the other the guilty party. Thus, their conflicting
testimony essentially made the trial a credibility contest between the two, thereby making the
prosecutor’s unlawful post-Miranda silence attacks on Petitioner that much more prejudicial to him.
Sixth, counsel objected to the first two improper post-Miranda silence remarks, each of
which were overruled by the trial court; thereby permitting the prosecutor to continue her postMiranda silence line of questioning and argument.
Seventh, no curative instructions were given to the jury on this issue at all. The absence of
a curative instruction likely left the jury with the false impression that the prosecutor’s references
to Petitioner’s post -Miranda silence were proper, appropriate, and well within their rights as jurors
to consider when convicting the Petitioner of the charged crimes.
In addition to all of the above, it’s clear the prosecutor chose to focus her closing argument
primarily on Petitioner’s post-Miranda silence, rather than on his pre-arrest silence, because
Petitioner’s pre-arrest silence was not as damaging to his testimony as the prosecutor would have
liked, as the Petitioner—though silent in regard to his exculpatory story amongst strangers—had in
fact conveyed significant portions of his exculpatory story, pre-arrest, to two people who were not
strangers to him: his son’s mother, Katie Draughon, and the victim’s father, Mr. Devonshire.
Lastly, because the crucial issue at trial was witness credibility, the Doyle violation cut to and
contaminated the core of the truth seeking process. The evidence against Petitioner was not potent,
31.

his story was not implausible, and the trial court’s cautionary instruction was not existent. In short,
if the jurors had credited Petitioner’s testimony, they were duty-bound to acquit him. Thus, the
State’s improper use of Petitioner’s post-Miranda silence to impeach him had “a substantial and
injurious effect or influence in determining the jury’s verdict.” Brecht v. Abrahamson. supra.
- Summary of the reasons for granting the writ based on the above particular question: (1) The
State and lower federal courts’ decision on this matter conflicts with the controlling decisions of the
U.S. Supreme Court and sets a dangerous new precedent that essentially strips from the citizens in
those jurisdictions significant Constitutional rights. (2) This issue provides the Court the opportunity
to revisit Miranda and Doyle in order to either reaffirm or overrule the States’ federal obligation to
advise its criminally accused of their rights to silence and an attorney upon arrest. (3) The issue of
a State invoking due process-mandated “discovery” in an effort to impeach defendants’ testimony
appears to be one of first impression with the Court; it presents the Court with a question of
significant importance; and it provides the Court the opportunity to definitively determine whether
the U.S. Constitution is offended by such an invocation. Thus, a Writ of Certiorari is prayed.
Question 2, When a petitioner asserts a claim for habeas relief under AEDPA and cites the correct
and controlling “clearly established” Supreme Court precedent in support thereof, does the lower
court frustrate the efficacy and viability of the AEDPA as intended by Congress by refusing to apply
said precedent when assessing the petitioner’s claim?
In Petitioner’s Doyle- violation claim raised in his federal habeas petition to the lower federal
courts, Petitioner alleged that at trial the State impeached him utilizing his post-Miranda silence, and
that the State court’s decision finding otherwise was: (1) based on an “unreasonable determination
of the facts in light of the evidence,” (§ 2254(d)(2)) and (2) was “contrary to...clearly established
federal law” {§ 2254(d)(1)) as determined by the Supreme Court in Doyle.
In Lockverv. Andrade. 538 U.S. 63 (2003), this Court held: “[T]he only question that matters
under § 2254(d)(1) ... [is] whether a state court decision is contrary to, or involved an unreasonable
application of clearly established federal law.” In deciding this question, the reviewing court “must
first decide what constitutes such ‘clearly established’ law.” Id. “Under § 2254(d)(1), ‘clearly
32.

established federal law’ is the governing legal...principles set forth by [the Supreme] Court at the
time a state court rendered] its decision.” Id.
At the time the State court rendered its decision in Petitioner’s case, the Supreme Court’s
cases of Doyle, Greer, and Brecht were clearly established law and a model of clarity regarding what
factors constitute a violation of due process when a State uses a defendant’s post-Miranda silence
at trial (see Greer. supra.); thereby “dictating] that the [State] court apply...{those] test[s] at the time
th[e] [State] court entertained [Petitioner’s Doyle] claim.” Williams v. Taylor. 529 U.S. 362, 391
(2000). Accordingly, in order to have obtained relief on his Doyle claim under § 2254(d)(1),
Petitioner had to demonstrate to the federal court that the State court decision rejecting his claim
either: (1) “applied a rule...contradicting] the governing law set forth in” Doyle and its progeny, or
(2) “confronted] a~set"of facts that were materially indistinguishable from” Doyle and itsprogeny
“and nevertheless arrivefd] at a result different from [those] precedents].” Id. at 405-406.
Petitioner contends he did just that when he demonstrated that the State court’s application
of Jenkins to the facts of his case “contradicted] the governing law set forth in” Greer and Brecht
(seeApp. G at 6-7); and that the State court “confronted] a set of facts materially indistinguishable
from” Brecht, but “nevertheless arrived at a result different” from that precedent. [Id.].7
The District Court, in assessing Petitioner’s claim, failed to analyze Petitioner’s claim under
the strictures set out in Doyle and its progeny, even though Petitioner had clearly and repeatedly cited
those Supreme Court precedents as controlling his claim. [App. F at 4-14]. Instead, the District Court
arbitrarily chose to hang its legal determinations of Petitioner’s Doyle claim on Federal law

7 After determining in Brecht that the prosecutorial post-Miranda silence remarks made in that
case—despite those remarks being sprinkled amongst properly raised pre-Miranda silence
remarks—were in fact a due process violation under Doyle, the Supreme Court went on to conduct a
harmless error analysis of the violation, and found the error harmless. The State and lower federal courts
in the case at bar, however, by refusing to acknowledge the obvious Doyle-violation at Petitioner’s trial,
have thus “confronted] a set of facts...materially indistinguishable from a decision of [the Supreme
Court],..[but have] nevertheless arrive[d] at a result different from [the Court’s] precedent [in Brecht].”
Williams v. Taylor. 529 U.S. 362, 406 (2000).
33.

pertaining only to improper prosecutorial remarks and misconduct. [App. B at 13-26; and App C at
23-33]. And though a prosecutor’s use of a defendant’s post-Miranda silence at trial can also be
raised as prosecutorial misconduct in a § 2254 petition, in this instance, however, and under the
particular circumstances of this case, Petitioner’s post-Miranda-silence claim is properly analyzed
under the strictures of Doyle. See Greer, at 764-65.
--------- Additionailyj the-District Gourt-also ignored-the-edicts-ofrf -2254(^(2/-when-assessing
Petitioner’s claim, as the Magistrate Judge asserted in his R&R that “Petitioner...does [not] allege
that the state court’s adjudication [of his Doyle-violation claim] resulted in a decision based on an
unreasonable determination of the facts.” [App. C at 33]. Which was a flagrant inaccuracy, as
Petitioner did in fact assert that the State court’s adjudication of his Doyle-violation claim was based
on an uhreasonable detenninatioh bf the facts in light of the evidence; and Petitioner did so not only
once, but at least three different times in regard to that specific ground alone. [See App. F at 5,13
{n. 4), and 14]. Despite this inaccuracy, the District Court adopted said R&R and failed to address the
fact that the State court’s determination of facts omitted the acknowledgment and analysis of at least
10 prosecutorial post -Miranda silence remarks challenged by the Petitioner, and then proceeded to
summarily deny and dismiss Petitioner’s claim. [App. B at 13-26].
Petitioner contends the District Court could not possibly obey the prevailing law and edicts
of § 2254(d)(1) and determine whether or not the State court decision made regarding his Doyleviolation claim “was contrary to...clearly established federal law, as determined by the Supreme
Court,” when the District Court so blatantly refused to properly consider, or even recognize, the
clearly established Supreme Court precedents controlling the Doyle issue. Nor could the District
Court obey the edicts of § 2254(d)(2) and properly adjudicate whether the State court’s decision was
an unreasonable determination of the facts in light of the evidence, when the District Court failed
to address or even acknowledge that the State court had omitted from its consideration ofPetitioner ’ s
Doyle claim at least 10 post-Miranda silence remarks that surely might have affected the State
court’s decision if considered. And the 4th Circuit Court of Appeals approved the District Court’s
34.

i

Wainwrisht. 477 U.S. 168 (1986) and In re Murchison. 349 U.S. 133 (1955). [App. F at 22-43].
Additionally, in one particularly egregious instance of an improper prosecutorial remark
made specifically to inflame, the prosecutor, during closing arguments, first informed the jury:
“[A]nd oh, by the way, according to [the Petitioner’s] last novel he’s writing another book. What a
perfect book.” [App. H(5) at 60:11-13]. Thereby implying that Petitioner was currently writing a
book about this crime. Then, shortly thereafter, the prosecutor told the jury: “And [the Petitioner]
made this story up because he can sit there and tell the greatest story in the world because after all,
if you convict him he goes to prison. If you buy his story, you buy his book.” [Id. at 64:10-13]. This
outrageous comment suggested to the jury that if they had a reasonable doubt as to Petitioner’s guilt
and acquitted him because of that doubt, Petitioner would gain some sort of financial windfall or
literary success as a result thereof, and that he would capitalize off of a verdict of acquittal by taking
the book that he was supposedly writing about this tragic crime and selling it to the public. This
comment was clearly made only for the explicit purpose of inflaming the jury.
The District Court disposed of Petitioner’s prosecutorial misconduct claim primarily by first
disposing of his Doyle- violation claim. [App. B at 30-36]. In regard to the outrageous prosecutorial
remark quoted above, the District Court, just like the State courts before it, completely failed to
specifically address or even mention it. [Id.].
In his Motion for a COA to the 4th Circuit Court of Appeals, Petitioner argued that reasonable
jurists would find the District Court’s assessment of his prosecutorial misconduct claim debatable
or wrong because, inter alia: (1) The prosecutor clearly and repeatedly attacked the Petitioner’s postMiranda silence at trial, in violation of Doyle; which, all by itself, is the sort of misconduct that
would entitle a petitioner to relief. (2) Even if the challenged prosecutorial remarks didn’t violate
Doyle, they were clearly made in an attempt to violate Doyle, and, according to Greer. at 765, a
prosecutor’s attempt to violate Doyle is misconduct as well, and, if found to be sufficiently
prejudicial, would still entitle the Petitioner to relief. And (3) The improper prosecutorial remark
quoted above—in which the prosecutor invited the jury to find the Petitioner guilty in order to keep
36.

him from attempting to capitalize financially from a verdict of acquittal—was so outrageous and
unethical it absolutely screams out for redress. [App. Gat 10-12].
The 4th Circuit Court of Appeals denied Petitioner a COA on this matter, apparently finding
that reasonable jurists would not even find debatable the District Court’s assessment and summary
dismissal of Petitioner’s prosecutorial misconduct claim. Petitioner disagrees with this finding and
respectfully-requeststhat-this-Court-weighinon-the-matter___________ j.___________________
Second, and in line with the holdings of Murchison, Petitioner demonstrated that the trial
court, inter alia: allowed the prosecutor, over defense objection, to attack Petitioner’s post-Miranda
silence, in violation of Doyle. [App. Fat 31-43].
In one particularly egregious example of judicial bias, the trial court—during a pre-trial
motions hearing, and while engaged" in a discussion with the prosecutor and defense counsel
regarding what the evidence at trial might demonstrate regarding Petitioner’s defense—announced:
(The Court): What I’m saying is that [Mr. Prophet] knew [the crime] was going to happen
two or three days beforehand and he called 911 to say Joseph Medina is going to commit
this crime and then two or three days later he voluntarily went along with [Medina] to
commit the crime that he had knowledge of two or three days in advance and he went along
[App. H(l) at 17:17-24]
with him when the crime was committed. He’s just as guilty.
Petitioner contends that the above particular statement made by the trial court in the above particular
context clearly demonstrates the court’s bias formed against the Petitioner before trial. For a trial
judge, on the precipice of a fully contested and media saturated murder trial, to unabashedly
announce certain presumptions adverse to the Petitioner and his defense is a clear exhibition of
actual bias. In fact, to the astonishment of the Petitioner—and under the hypothetical circumstances
of a scenario the judge has created in his own mind—the judge actually declares in open court that
the Petitioner is “just as guilty” as Joseph Medina in the commission of the murders for which
Petitioner is set to go on trial for the very next day. This was an outrageous and clearly biased
remark, and an unlawful presumption on the court’s part, as the only presumption tolerated in our
nation’s system of criminal justice is the presumption of a man’s innocence. See Coffin v. United

37.

type, or one that is combined with a pattern ofprosecutorial misconduct, might so infect the integrity
of the proceeding as to warrant the grant of habeas relief, even if it did not substantially influence
the jury’s verdict.” Id. Petitioner contends that just such a pattern of misconduct as anticipated by
Brecht footnote 9 occurred in this case. (3) This issue provides the Court the opportunity to
determine whether certain pretrial actions and declarations of a trial court undermine the
presumption of innocence guaranteed by the Constitution, and whether Brecht footnote 9 should
apply to such misconduct. Thus, a Writ of Certiorari is prayed.
Question 4. Is the right to effective counsel violated when counsel, inter alia, fails to object at trial
to a prosecutorial assertion that the defendant tailored his trial testimony to the discovery evidence,
especially when the attorney knows such an assertion to be false because the defendant told the
attorney the exact same version of events testified to at trial immediately after his arrest and long
before discovery had been disclosed in the case?
In Petitioner’s ineffective assistance of counsel claim raised in his § 2254 habeas petition,
and in line with the holdings ofStrickland. 466 U.S. 668 (1984), Petitioner demonstrated that his trial
counsel was ineffective for, inter alia, failing to continuously object to the prosecutor’s Doyleviolating attacks on his post-Miranda silence. [App. F at 43-48].
And while the principle of “continuing objection” noted in State v. Walker. 207 W. Va. 415,
533 S.E. 2d 48, 51-52 (2000), relieves counsel from the duty of repeatedly objecting to the same or
similar objected to issues previously overruled by the court, Petitioner contends that the prosecutorial
assertion that Petitioner “never tells a living soul his story until he takes th[e] stand” and that he was
silent in regard to his exculpatory story for 2 years because he was tailoring his testimony to the
evidence was so blatantly false and egregious, counsel had a duty to be persistent in their efforts to
stop it. Further, said prosecutorial assertion was extremely prejudicial to Petitioner because it had
the potential to induce the jury into believing that Petitioner really hadn ’t conveyed his exculpatory
story to anyone prior to trial, including his attorneys, and that he really had spent the “two years”
before trial tailoring his testimony to the discovery evidence. Defense counsel’s silence on the matter
39.

and failure to object to this false assertion likely caused the jury to infer that the prosecutor’s
assertion was not only proper and permissible, but was, in fact, true. The likelihood of such a
sentiment amongst the jurors, no matter how slight, was extremely prejudicial to the Petitioner.
The District Court summarily disposed ofPetitioner’s ineffective assistance of counsel claim.
[App. B at 54-60]. The 4th Circuit Court of Appeals then denied Petitioner a COA on the issue,
apparently finding that reasonable jurists would not even find debatable the District Court’s
assessment and summary dismissal of the claim. Petitioner disagrees with this finding and
respectfully requests that this Court weigh in on the matter. Thus, a Writ of Certiorari is prayed.
Question 5. Could reasonable jurists disagree with or find debatable the District Court’s assessment
and summary dismissal of Petitioner’s § 2254 petition, and, if so, did the 4th Circuit Court of Appeals
err in denying Petitioner a COA?
Petitioner contends that reasonable jurists would find debatable or wrong the District Court’s
assessment and summary dismissal of Petitioner’s § 2254 petition; and, therefore, the 4th Circuit
Court ofAppeals’ decision denying Petitioner a COA was error that conflicts with relevant decisions
of this Court. See Slack v. McDaniel. 529 U.S. 473,484 (2000). Petitioner respectfully requests that
the Court review the trial record and briefs appended hereto, and, even if the Court finds Petitioner’s
Questions unworthy of a Writ of Certiorari, that the Court at the very least Orders the 4th Circuit
Court of Appeals to grant Petitioner a COA.
CONCLUSION
For the foregoing reasons, and in the interests ofjustice, Petitioner prays that this Honorable
Court, the United States Supreme Court, grants this petition for a writ of certiorari; or, in the
alternative, orders that the 4th Circuit Court of Appeals grant Petitioner a COA.
Respectfully submitted,

Date:

Antonio Prophetypro se

40.

